           Amtrak
Office of Inspector General
                EVALUATION REPORT E-09-01

              Comparison of Amtrak
            Infrastructure Labor Costs
          to European Railroad Averages
                        March 24, 2009




 This report will become available to the public on 23 April 2009.
TABLE OF CONTENTS


EXECUTIVE SUMMARY                                             ii


INTRODUCTION                                                  1


FINDINGS

  Major Labor Cost Categories

     1.   Total Annual Labor Cost per Worker                  2
     2.   Annual Base Wages per Worker                        3
     3.   Annual Extraordinary Wages per Worker               3
     4.   Annual Benefits per Worker                          3

  Components of Labor Benefits

     5.   Comparison of Benefit Expenses                      5

  Comparison of Labor Cost per Available Work Hours

     6.   Comparison of Available Work Hours per Year         7
     7.   Comparison of Labor Cost per Available Work hour    7

SUMMARY CONCLUSIONS                                          11




LIST OF APPENDICES

I - Major Contributors                                       12




                                 1
EXECUTIVE SUMMARY
       Amtrak’s OIG is in the process of completing an evaluation that compares
Amtrak’s infrastructure maintenance expenses to that of a sample of European Rail
Passenger Systems. During the cost comparison phase of this evaluation, it was
determined that the annual cost of an Amtrak infrastructure worker is significantly
higher than that of the average European infrastructure worker. When we briefed
the preliminary results of the infrastructure cost comparisons to Amtrak’s CEO, he
questioned why the annual cost of an Amtrak infrastructure worker is so much higher
than that of the average European worker. This report identifies the primary reasons
why Amtrak’s costs are so much higher.


Overall Conclusions

           The average annual cost 1 of an Amtrak infrastructure worker is 2.3 times that
    of the average European railroad infrastructure worker. As illustrated in the bar
    graph below, the primary reasons why the Amtrak labor costs are so much higher
    than that of the average European worker are that the Amtrak worker earns
    $14,500 more in extraordinary wages and that Amtrak pays $24,900 more for
    employee benefits each year. The difference in the annual base wages amounts to
    $9,200 per year. The pie chart below illustrates that 51% of the variance in labor
    cost is due to Amtrak’s higher benefit expenses, 30% due to higher extraordinary
    wages, and 19% due to higher base wages. A major contributing factor to the
    higher base wages and extraordinary wages is that, on average, Amtrak
    infrastructure workers work 32% more hours per year, including six times more
    overtime hours, than their European counterparts.



                 2006 Annual Labor Cost per Employee                        Relative Contribution to Cost Variance

      $100,000

       $90,000
                                Benefits
       $80,000                  ExtraordinaryWages
                                Base Wages                                                      Base Wages
       $70,000                                                                                     19%
       $60,000

       $50,000
                                                                               Benefits
       $40,000                                                                  51%
                                                                                                    Extraordinary
       $30,000                                                                                        Wages
                                                                                                        30%
       $20,000

       $10,000

           $0
                   Amtrak                      EuropeanAverage




1
  This study was based on 2006 Amtrak labor cost data that did NOT include the retroactive pay increases
included in Amtrak’s 2008 labor agreement.
                                                                 2
INTRODUCTION

Background/Purpose
        Amtrak’s OIG is currently in the process of evaluating the efficiency of
Amtrak’s infrastructure maintenance program. To gauge the relative efficiency of
Amtrak’s programs, we benchmarked Amtrak’s infrastructure maintenance program
to that of a sample of European Rail Passenger Systems. During the cost comparison
phase of this evaluation, it was determined that the annual cost of an Amtrak
infrastructure worker was significantly higher than that of the average European
infrastructure worker.

        The purpose of this review is to determine why the annual cost of an
infrastructure worker at Amtrak is more than twice that of the average infrastructure
worker at a European railroad. The evaluation report on the efficiency of Amtrak’s
infrastructure maintenance program is in the process of being completed and will be
published at a later date.

Methodology/Scope
      To determine the reasons why the annual cost of Amtrak’s infrastructure
workers are higher than European infrastructure workers, we:

      Compared the three major sub-categories of labor cost (Regular wages,
       extraordinary wages, benefits)
      Compared the detailed categories of benefits
      Compared labor cost on an available work hour basis.

The data for Amtrak workers was obtained from Amtrak’s Financial Information
System (FIS) and the data for European workers was obtained from surveys that had
been issued by BSL Management Consultants, which is a German based consulting
company that has been benchmarking the efficiency of European Infrastructure
Maintenance Programs for the past 12 years. The Amtrak data does not include the
significant increase in labor rates included in Amtrak’s 2008 labor agreement.

      Amtrak’s average annual labor cost of an infrastructure worker for FY 2006
was compared to the average labor cost of infrastructure workers at 15 European
Passenger Rail systems. The Amtrak data included labor data on about 3,000
employees and the European data on over 100,000 employees. To make valid
comparisons, the European infrastructure labor costs were adjusted for purchasing
power, currency, and calendar year. The adjustments for purchasing power, which
were based upon data supplied by the Organization of Economic Cooperation and
Development (OECD), equalized the purchasing power of the currencies in each
country. Some of the more detailed comparisons (e.g. regular work hours per week
compared to 12 European RRs) were made to only a portion of the 15 railroads
where the detailed information was readily available for the comparison.
                                          3
FINDINGS:

                  MAJOR LABOR COST CATEGORIES
      The comparisons of costs in this portion of the review are based upon the
annual cost per worker.

Finding No. 1 - The average annual labor cost of an Amtrak
infrastructure worker is more than twice (2.3) that of the average
European railroad infrastructure worker.

Discussion:

       As shown in the following BSL graph, the average annual labor cost of an
Amtrak infrastructure worker in FY 2006 was 2.3 times that of the average
European worker. This comparison of labor costs includes all wages and benefits
paid to full time employees working on the infrastructure. For Amtrak, these
employees are in the Engineering department and for the European railroads
they are often in a separate company (e.g. OBB in Austria) that is responsible for
the inspection, maintenance, construction and operation of the railroads fixed
asset (e.g. tracks, bridges, tunnels, etc.).


                                             CHART 1
  1,000 US$
     fte¹      Average annual labor cost for RR infrastructure workers
                                normalized by PPP (3)




          75




          50

                                                               European Average          (2)




          25




           0
               NEC R1   R7   R14 R13   R6   R8   R9       R4   R10 R11   R5   R15   R2   R12   R3
           Amtrak


    1. fte: full time employee
    2 1998 to 2005 data adjusted to 2006 cost level
    3. Purchasing Power Parity equalizes the purchasing power of each country’s currency.

                                                      2
Finding No. 2 - Amtrak’s Base Wages per Worker are 1.3
times that of the Average European Worker.

Finding No. 3 - Amtrak’s Extraordinary Wages per Worker
are 3.5 times that of the Average European Worker.

Finding No. 4 – Amtrak’s Annual Benefit Costs per Worker
are 4.25 times that of the Average European Worker.

Discussion:

       Total annual labor cost is comprised of base wages, extraordinary wages,
and benefits. Base wages are the wages an employee earns for working the
regularly assigned work schedule, extraordinary wages are those earned outside
the regular work schedule (e.g. overtime, weekend, etc.), and benefits are the
expenses paid for an employee such as health programs, unemployment &
accident insurance, retirement, etc. The following bar chart compares these
three categories of Amtrak labor expenses to those of the European Railroads.
This chart illustrates that the cause of Amtrak’s relatively higher labor expenses

                                                                                       CHART 2
                                                                   Average Annual Wages, Extraordinary Wages & Benefits
                                                                  per Infrastructure Worker (Benefits Include Employee Contribution)
                                                 100

                                                  90                                                                                        Benefits
                                                                                                                                            Ext. Wage
                                                  80
                                                                                                                                            Base Wage
   A v e ra g e A n n u a l C o s t ($ 0 0 0 )




                                                  70

                                                  60

                                                  50

                                                  40

                                                  30

                                                  20

                                                  10

                                                   0
                                                       NEC   R7        R6         R8        R4       R10       R11        R5           R2          R12

  Note: All data based on cost per full time employee and European costs have been adjusted for
  purchasing power parity.

                                                                                              3
                                                                are related more to its higher extraordinary wages and benefit expenses than to
                                                                its base wages. To get a better perspective of these relative expense levels,
                                                                each of the three categories of labor expense is charted below.

                                                                                                                                                                                                 CHART 3
                                                                                                                                                Base Wages

                                                               40
                                                                                                                                                                                                                     Chart 3 illustrates that Amtrak’s
                                                                                                                                                                                                                     annual base wages per worker
A v g . B a s e W a g e P e r T ra c k W o rk e r ($ 0 0 0 )




                                                               35
                                                                                                                                                                                                                     are only 1.3 times that of the
                                                               30
                                                                                                                                                                                                                     European Average. To
                                                                                                                                                                      European Average
                                                               25                                                                                                                                                    compare to the data readily
                                                               20                                                                                                                                                    available for European workers,
                                                               15                                                                                                                                                    base wages exclude employee
                                                               10
                                                                                                                                                                                                                     contributions to benefits (e.g.
                                                                                                                                                                                                                     RR retirement)
                                                                5

                                                                0
                                                                                                           NEC       R7        R6          R8        R4        R10         R11         R5        R2        R12



                                                                                                                                                                                                 CHART 4
                                                                                                                                    Avg. Annual Extraordinary Wages

                                                                                                           25
                                                                    Avg. Annual Cost Per Employee ($000)




                                                                                                           20

                                                                                                                                                                                                                     Chart 4 illustrates that Amtrak’s
                                                                                                           15                                                                                                        annual extraordinary wages per
                                                                                                                                                                                                                     worker are 3.5 times that of the
                                                                                                           10
                                                                                                                                                                                                                     average European worker.
                                                                                                                                    European Avg.
                                                                                                            5



                                                                                                            0
                                                                                                                 Amtrak   R7          R6        R8        R4         R10         R11        R5        R2       R12


                                                                                                                                                                                                 CHART 5
                                                                                                                               Average Annual Benefits per Employee
                                                                                                                                    (Includes Employee Contribution to Benefits)
                                                                                                           45


                                                                                                           40


                                                                                                           35
                                                                                                                                                                                                                     Chart 5 illustrates that the
                                                                                                                                                                                                                     annual benefit expenses for
                                                                         Average Annual Cost ($000)




                                                                                                           30
                                                                                                                                                                                                                     Amtrak workers are 4.25 times
                                                                                                           25
                                                                                                                                                                                                                     that of the average European
                                                                                                           20
                                                                                                                                                                                                                     worker. The benefit costs
                                                                                                           15

                                                                                                                                                                                                  European Avg.      include the employee
                                                                                                           10
                                                                                                                                                                                                                     contributions to benefits.
                                                                                                            5


                                                                                                            0
                                                                                                                 Amtrak   R7          R6        R8        R4         R10         R11        R5        R2       R12




                                                                                                           Note: All data based on cost per full time employee and European costs have been
                                                                                                           adjusted for purchasing power parity.


                                                                                                                                                                                                           4
           COMPARISON OF EMPLOYEE BENEFITS

Finding No. 5 – Compared to the average European railroad,
Amtrak’s contributions to employee health and accident
insurance are significantly higher.

Discussion:

       Employee benefit expenses are those expenses paid for non-wage items
including:

      Unemployment Insurance
      Health Insurance
      Pensions
      Accident Insurance
      Other

    This analysis compares the payments that only the employer (i.e. either
Amtrak or the European Railroad) makes for these expenses. This distinction has
been made since Amtrak reports only the contributions it makes to employee
benefits while the European Railroads report the total amount that both the
employer and employee contribute toward employee benefits. To obtain
comparable European data, we requested BSL consultants to research the
amount that only the European Railroads contributed to each type of employee
benefit. Three European railroads responded to BSL’s request and the resulting
data is plotted along with the related Amtrak data in the BSL Chart 6 on the
following page.

    Chart 6 illustrates that, compared to these three European Railroads,
Amtrak’s health benefit expenses and its accident insurance expenses are
significantly higher. It is not surprising that Amtrak’s health insurance is much
higher since many of the European countries have nationalized health plans,
relieving the railroads and other employers from this financial responsibility.
Although Amtrak’s pension expenses are high, they are not significantly out of
line with the three European railroads included in the comparison. Similarly,
Amtrak’s accident insurance and other benefit expenses are also in line with
these railroads.




                                         5
                                                                                   CHART 6




                                                                    Composition of Benefits
                                                                     (Employer's share only)
Share of benefits
in total wages
                                                                                                                                     Swiss                                                    A m tr a k
                                             2 5 .4 %
                                                                                                                                                                                              S UI
25%
25%
                                                                                                                                     2 3. 0%      Pension Fund4                               G ER
                                                                                                                                                                                              G BR
                                                                                                                           19 . 5%                  GER
20%
20%

                                                                                                                                                          1 6 .7 %
                                                                                                                                                                     NI1
                                                                                                     Amtrak
15%
15%                                                                                                                                                                    GBR

                                                                                                                                               1 0. 0 %
10%
10%                                                                                                                                                                  Pension
                                                                                     7 .1 %
                                                                                                                                                                     Scheme6
                                                                 6 .7 %
                                                                                                                                     AHV5
5%
5%

                                  NI1                                                                                                                                                                NI1
                         1. 7 %
        1. 0%   1. 0 %                                       2                 3                        1 .0 %                                                             1 .0 %            0 .9 % 1 .2 %
                                  0 .1 %                0 .0 %            0 .0 %              0 .0 %              0 .0 %                                                            0 .0 %
0%
0%
       U ne m pl oy m en t i n su r an c e         H ea lt h in s ur a nc e               A c c id en t in s ur a nc e           Pen s io n sc h em e                                  O th er




 1) NI = National Insurance, re-calculated based on benefit payments
 2) Health insurance is obligatory for all Swiss inhabitants, independent from work contracts
 3) The National Health service is funded exclusively through income tax
 4) Depending on age of employee, here: 40-49 years
 5) AHV = Old-age and survivors' insurance, family allowance, administrative costs
 6) After privatization, railway industry is continuing payments into pension funds




                                                                                      6
     COSTS BASED ON AVAILABLE WORKING HOUR
        All the comparisons of Amtrak labor expenses to this point have been
made on an annual cost basis. To obtain a better measure of the relative cost of
labor, the comparisons should take into consideration not only the cost of labor,
but also the amount of time that an employee is available for work.

Finding No. 6 - Amtrak’s annual available working hours per
employee is significantly higher than that of the sample of
European Railroads.

Finding No. 7 - Amtrak’s labor cost per available working
hours is 1.62 that of the Average European worker.

Discussion:

      The number of hours an individual is available for work is mathematically
comprised of:

           Hours of regular pay
           Less - the hours “Paid but not worked”
           Plus - overtime hours

 For an Amtrak infrastructure employee, this relationship is depicted by the
 following BSL bar graph - Chart 7. That is, the 2,086 gross annual paid working


                                                             CHART 7

    Breakdown of FY ’06 Annual Available Work Hours for Amtrak Infrastructure Worker
    2,300                                                                                    +29%
                                                                                                     498       2,222
    2,200
                                                                                                               +7%
    2,100    2,086      157


    2,000
                                   88                                                   -17%
    1,900
                                              5         67
    1,800                                                          n/a         45
                                                                                        1,724
    1,700

    1,600



     200

     100

        0
             gross    vacation    bank      illness   training   medical      other    net hours   overtime   available
            working              holidays                         care       absence     excl.                working
             hours                                                             time    overtime                hours




                                                                         7
hours is decreased by the 362 non-worked but paid hours and then increased
by the 498 overtime hours to generate an average of 2,222 available hours per
year.

     There are significant differences between the work hours for the average
Amtrak and the average European infrastructure worker in all three of these
work hour categories. The regular gross working hours for employees is based
upon the weekly number of regular paid working hours for each railroad. For
Amtrak, the 40 hour per week schedule equates to 2,086 regular work hours
per year. As shown in the following BSL chart – Chart 8, there is a significant
variance in the regular paid weekly work hours for the European railroads and
an overall 5% difference between an Amtrak work week and the average
European work week.

                                                       CHART 8



                                           Regular paid working times
         [hours/week]

           44


           42
                                                                                41.0
                 40.0              40. 0                                                             4 0.0
           40
                                                  European Average
                                                                                              39.0
                                                                        38 .3
                                           38.0
           38                                            37.5
                           37 .0                                                       37.0
                                                  36.0          3 6.0                                        36 .3
           36


           34


           32


           30
                A m trak    R2      R3     R4     R5     R6      R7      R8     R9     R1 0   R11    R12     R13

                                                         European railroads




     There are even greater variances amongst these railroads in the number
hours that the workers are paid but not available to work. The following four
BSL bar graphs – Chart 9 - compare, by cause, the amount of time the average
employee from each railroad is unavailable for work. These graphs illustrate
how Amtrak employees experience significantly fewer paid but not worked days
because of vacation and illness, roughly the same number for bank holidays,
and a few more for training.



                                                            8
                                                                    CHART 9


    [days/year]                       Vacation                                  [days/year]                      Bank holidays
                                                35.0                              14                                                     13.0

                                                                                  12 11.0
      30

                                                                                  10

            19.6                                                                   8
      20

                                                                                   6


      10                                                                           4                                            3.0

                                                                                   2

       0                                                                           0
           Amtrak R2   R3   R4   R5   R6   R7     R8   R9 R10 R11 R12 R13              Amtrak R2    R3   R4     R5   R6    R7   R8    R9 R10 R11 R12 R13

           [%]                        Illness                                          [%]                           Training
                                           8.0%
      8%
                                                                                  4%         3.8%

                                                                                         3.2%
      6%



      4%
                                                                                  2%


      2%
                                                                                                         0.4%
             0.2%                               0.2%
      0%                                                                          0%
           AmtrakR2    R3   R4   R5   R6   R7     R8   R9 R10 R11 R12 R13              AmtrakR2     R3   R4     R5   R6    R7   R8    R9 R10 R11 R12 R13




The net impact of the differences in regular paid work hours, paid but not
worked hours and overtime hours on the number of available working hours per
year is presented for Amtrak and a sample of six European railroads in the
following BSL table - Chart 10.   This chart demonstrates that Amtrak’s
annual available working hours per employee is significantly higher
(32%) than that of the sample of European Railroads.

                                                                   CHART 10
                                                          Annual Working Hours

 Railroad                                         Amtrak            R2            R3                 R6                   R8              R9          R11

 Gross working hours                                   2,086        1,929        2,086              1,955                 1,999          2,138        2,034

 Total absence time                                       362          448             395               412                330             438            509

 Net hours excl. overtime                              1,724        1,482        1,691              1,544                 1,669          1,700        1,524

 Overtime                                                 498          120               99                95               120                 20         42

 Available working hours                               2,222        1,602        1,790              1,639                 1,789          1,720        1,566




                                                                            9
       Amtrak’s relatively higher number of available working hours per year has
a direct and proportional impact on its relative labor cost per available working
hour. The following BSL bar graph - Chart 11 illustrates that when labor costs
per available working hour are compared, Amtrak labor costs are 1.62 times that
of the European average labor cost instead of being 2.3 times that of the
European average when the total annual costs per year are compared.


                                                       CHART 11


                 Average annual                Available annual                                 Labor cost per
                   labor cost                   working hours                               available working hour
                  normalized by PPP


                                                                          A m t ra k


                                                                                R6


                                                                              R1 1


                                                                                                        +62%
                                                                                R9


                                                                                R8                          Ø = 25.7


                                                                                R2

                1,000 US$                                                                      -39%                US$
                   fte                                                          R3                                 hour



                  80     60   40   20   0   1 .0 0 0   1 .50 0   2. 000                10      20      30          40




                                                            10
                          SUMMARY CONCLUSIONS2

       Amtrak's labor cost per infrastructure worker is clearly above
        that of European railroads; over 2 times that of the average
        European worker.
       Compared to the average European worker, Amtrak’s:
            Base wages per employee are 1.3 times as much
            Extraordinary wages per employee are 3.5 times as
                    much, and
            Benefits per employee are 4.2 times as much.
       Amtrak's benefit cost per employee is higher primarily due to its
        higher Health and Accident Insurance (FELA) costs.
       Amtrak's available working hours per employee is significantly
        higher than the European average because its base hours are
        higher and its overtime hours amounts to almost 30% of
        regular hours.
       After taking into consideration its higher working hours,
        Amtrak's labor cost per available working hour is only 62%
        above the sample's average; higher primarily due to its higher
        benefit costs and its higher % of extraordinary wages.




2
  Amtrak labor costs do not include the significant hourly wage increases included in the recent Amtrak
labor agreement. To make the comparison of Amtrak costs to that of multiple European railroads, the
purchasing power of each European currency was equalized using the Purchasing Power Parity factors of
the Organization for Economic Co-operation and Development (OECD).



                                                   11
                        APPENDIX I

          Major Contributors to Report E-09-01

Name__________________________Title___________________

BSL Management Consultants

Dr. Heiner Bente              Managing Director
Klaus Wittmeier               Senior Consultant
Dr. Olaf Zeike                Senior Consultant

Amtak OIG

Calvin Evans                 Deputy IG, Inspect. & Eval.
Jim Simpson                  Chief, Inspections & Evaluations




                             12
